<html>
<title> - NEW DIRECTION OR OLD PATH? CARIBBEAN BASIN SECURITY INITIATIVE (CBSI)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       NEW DIRECTION OR OLD PATH?
               CARIBBEAN BASIN SECURITY INITIATIVE (CBSI)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2009

                               __________

                           Serial No. 111-70

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
53-990                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5c2d5cae5c6d0d6d1cdc0c9d58bc6cac88b">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida
              Jason Steinbaum, Subcommittee Staff Director
        Eric Jacobstein, Subcommittee Professional Staff Member
           Fred Ratliff, Republican Professional Staff Member
                  Julie Schoenthaler, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Julissa Reynoso, Deputy Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State...........    11
Mr. Stephen Johnson (Former Deputy Assistant Secretary of Defense 
  for Western Hemisphere Affairs)................................    30
Ivelaw Lloyd Griffith, Ph.D., Provost & Senior Vice President for 
  Academic Affairs, York College, The City University of New York    39
Anthony P. Maingot, Ph.D., Professor Emeritus of Sociology, 
  National Security Scholar-in-Residence, Florida International 
  University.....................................................    65

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     5
Ms. Julissa Reynoso: Prepared statement..........................    14
Mr. Stephen Johnson: Prepared statement..........................    33
Ivelaw Lloyd Griffith, Ph.D.: Prepared statement.................    43
Anthony P. Maingot, Ph.D.: Prepared statement....................    67

                                APPENDIX

Hearing notice...................................................   102
Hearing minutes..................................................   103
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................   104
Written responses from Ms. Julissa Reynoso to questions submitted 
  for the record by the Honorable Eliot L. Engel.................   106
Written response from Ms. Julissa Reynoso to question submitted 
  for the record by the Honorable Bill Delahunt, a Representative 
  in Congress from the Commonwealth of Massachusetts.............   114
Written testimony of Mr. Anton Edmunds, Executive Director and 
  CEO, Caribbean Central American Action.........................   115


 NEW DIRECTION OR OLD PATH? CARIBBEAN BASIN SECURITY INITIATIVE (CBSI)

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2009

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:18 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the subcommittee) presiding.
    Mr. Engel. The hearing is called to order. Before I begin, 
I want to acknowledge a number of distinguished ambassadors 
from the Caribbean, and we thank them for coming here today 
from Antigua and Barbuda, Ambassador Deborah Mae Lovell. If I 
mispronounce anything, please forgive me. From the Bahamas, 
Ambassador Cornelius Alvin Smith. From Barbados, Ambassador 
John Ernest Beale. From Guyana, Ambassador Barney Karran. From 
Jamaica, Ambassador Anthony Smith Rowe Johnson. From St. Lucia, 
Dr. Michael Louis. And from Trinidad and Tobago, Ambassador Dr. 
Glynda Patricia Morean-Phillip.
    So I thank all of you for coming. It is quite an honor to 
have you here and of course you are always welcome. I hope I 
didn't butcher anybody's name too badly.
    So the Subcommittee on the Western Hemisphere will come to 
order. I am pleased to welcome you to today's hearing on the 
Caribbean Basin Security Initiative and to welcome Ms. Julissa 
Reynoso, the new deputy assistant secretary of state for the 
Caribbean, Central American and Cuban Affairs to what is I hope 
her first of many appearances before this committee. And Ms. 
Reynoso comes from the Bronx, as I do. So we have something in 
common. And I am sure your Bronx roots will help lay the 
groundwork for a great working relationship with this 
subcommittee. I know you are just a little bit smarter than 
most people because you come from the Bronx.
    Ms. Reynoso. That is right.
    Mr. Engel. So today's hearing provides an excellent 
opportunity to highlight the security concerns of the 
Caribbean. So often the region's problems get overlooked except 
as a vacation spot or when there is a crisis.
    As chairman of the House Foreign Affairs Subcommittee on 
the Western Hemisphere, the Caribbean has been a high priority 
for me, and I have been a strong proponent of making sure the 
Caribbean is at the top of the U.S. foreign policy agenda. Not 
only do I have many constituents in my congressional district 
of Caribbean heritage, including many from Jamaica, Haiti and 
the Dominican Republic, and as I mentioned, my district is in 
the Bronx in New York and Westchester County and Rockland 
County, but I firmly believe that a strong bond with our 
friends in the Caribbean benefits the entire region. I was 
proud to lead the official congressional delegation to the 
Summit of the Americas in Trinidad and Tobago in April, and 
since I have been chairman we have been to Trinidad twice. In 
Trinidad at the Summit of the Americas I met with the leaders 
of most of the Caribbean nations one-to-one with my delegation, 
a very, very good exchange of views and ideas.
    I strongly support President Obama's initiative to 
strengthen cooperation on security with our neighbors in the 
Caribbean, and above all, I agree with his message that we need 
to listen to our Caribbean friends, and build on their 
strengths in areas they see as important. This is precisely 
what we must do to bolster the security of our Caribbean 
neighbors, enhance what works while creating new avenues for 
partnership. I know that security is the top concern of many 
Caribbean leaders and we must not delay. Prime Minister Manning 
of Trinidad and Tobago expressed to me personally a strong 
willingness to deepen security cooperation with the United 
States and hoped that resources and attention from Washington 
would follow our positive rhetoric.
    Now is the time for us to increase security assistance to 
the small and vulnerable countries of the Caribbean. What we 
need is an approach to security in the Caribbean that is 
cooperative, sustained, and well-resourced while working in 
coordination with existing efforts in the Western Hemisphere, 
like the Merida Initiative and the Andean Counterdrug 
Initiative, or ACI.
    According to statistics released by the United Nations 
Office of Drugs and Crime and Interpol in 2007, the overall 
Caribbean murder rate of 30 per 100,000 is higher than that of 
any other region in the world. Aside from the human toll that 
crime has on society, it also acts as a barrier to development 
and investment, directing more resources to security and away 
from social improvement, thus fueling a vicious cycle that only 
encourages more crime.
    I saw this during a recent congressional delegation to 
Jamaica, a country with an <greek-l>be  deg.alarmingly high 
murder rate. In my meeting with Prime Minister Golding, he 
stressed to me that 90 percent of the illegal guns confiscated 
in Jamaica come from the United States. President Caldern of 
Mexico reported similarly alarming trends. It is for this 
reason the United States needs to ratify the Inter-American 
Convention against the Illicit Manufacturing of and Trafficking 
in Firearms, Ammunition, Explosives, and Other Related 
Materials. This treaty, which has been negotiated but not yet 
ratified by the Senate, is called the CIFTA treaty. It has been 
stalled in the Senate and it directly targets illegal arms 
smuggling, an issue of great consequence for the Caribbean and 
the rest of the hemisphere.
    Ever since becoming chairman of this subcommittee, I have 
been increasingly concerned about the effectiveness of U.S. 
counternarcotics efforts in the Americas. We must not only work 
with our partners in the region to stem the supply of illicit 
drugs, but we must increase efforts to reduce demand here in 
the United States at home. Most importantly, we must figure out 
what works and what does not.
    I am therefore pleased that just yesterday the House of 
Representatives passed my bill to create a Western Hemisphere 
drug policy commission to evaluate the U.S. counternarcotics 
strategy in the hemisphere. It is my hope that the work of this 
commission will support our efforts to work with CARICOM on the 
scourge of drugs. And I might add that I was delighted to have 
as a strong supporter and sponsor of this legislation our 
ranking member, Mr. Mack. And I want to again--I did it 
yesterday but I want to publicly thank him for his support. 
This was truly a bipartisan bill and passed the House with 
voice vote. So thank you, Mr. Mack.
    I also believe that we need to take a holistic view of the 
entire region when we begin implementing CBSI. I am very 
concerned that if we don't act quickly to bolster our friends 
in the Caribbean, the positive impact of the Merida Initiative 
in Mexico and Central America may push the drug trade further 
into the Caribbean and increase the already alarming rates of 
violence.
    In implementing CBSI we need to make sure our approach with 
the Merida Initiative and the Andean Counterdrug Initiative 
work together to combat the drug trade and insecurity 
throughout the region. It makes little sense for all three 
efforts to work in the Western Hemisphere without proper 
coordination. That is why I have added a section to legislation 
which has passed the House establishing a coordinator with 
State Department for the Merida Initiative. I am calling for an 
executive branch coordinator at the State Department to oversee 
and manage our counternarcotics programs in the Americas.
    Since CBSI was announced at the summit last April there 
have been three meetings held on this initiative. Initial 
United States-Caribbean meetings were held in Suriname, 
Barbados, and the Dominican Republic in 2009, and a ministerial 
meeting is expected to take place in Washington in early 2010 
in which a political declaration, action plan, and framework 
for the CBSI will be adopted. We must quickly move forward on 
this initiative and produce more detailed planning on the shape 
of CBSI. I also think that at next year's meeting in Washington 
that President Obama should meet with the Caribbean leaders. 
This meeting would not only demonstrate support for CBSI, but 
it would go a long way toward showing our Caribbean friends 
that the United States stands shoulder to shoulder on the 
challenges we face together.
    I would like to commend President Obama for announcing $45 
million of initial funding for CBSI when he was at the Summit 
of the Americas. However, I am disappointed to learn that only 
$37 million will be appropriated. I believe we have to fund the 
remaining $8 million to meet this important obligation to the 
Caribbean. It is hard to generalize about a diverse region 
about the Caribbean, but we can all agree that insecurity is a 
common threat to every nation in the region. These threats, 
drugs, gangs, violent crime, criminal organizations, and even 
natural disasters are magnified by the poverty, corruption, and 
limited opportunities. What is most important is that through 
CBSI, the United States demonstrates to the nations of the 
Caribbean that we will listen to your concerns about your 
security, learn from your experiences, and respond tangibly, 
effectively, and cooperatively to the situation you face every 
day. We cannot tell you what the problem is. We want to hear 
from you and learn from you what the problem is.
    While it is hard for any program to be an absolute solution 
to all the significant security problems found in the region, I 
think CBSI is a good step in the right direction, and I am 
looking forward to learning more about the initiative today.
    With that, I would like to call on the ranking member, Mr. 
Mack, for his opening statement.
    [The prepared statement of Mr. Engel 
follows:]<greek-l>Engel statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Mack. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing today. It has been a pleasure to serve on 
this committee and to serve with you and your leadership in the 
hemisphere. We work well together, and we agree on a lot. Not 
on everything, but the things that we don't agree on we have 
been able to talk about and to work on together. So I 
appreciate your leadership.
    I would also like to thank our witnesses for being here 
today. I would especially like to thank Steve Johnson for 
coming today as well. I know that he has a very tight schedule 
and he might have to leave before we get to him, but I believe 
that it is important that we hear his perspective.
    Before we begin, Mr. Chairman, I would like to touch on 
something that happened in Honduras yesterday. As some of you 
already know, Honduras' top fighter against narcotrafficking 
was brutally assassinated. Like the Caribbean, Central America 
is fighting hard against narcotraffickers, and this is just 
another example of what we are facing: Cowardly thugs who will 
stop at nothing to weaken governments and terrorize the people. 
This is also a reminder to us all that the Obama administration 
must restore military cooperation with the Hondurans. They are 
flying blind in a tough fight against narcoterrorists, and the 
one country that could help them defeat the drug traffickers 
continues to stand while the innocent are killed.
    Mr. Chairman, the nations of the Caribbean are instrumental 
in our fight against narcotrafficking. My own State of Florida 
has firsthand experience with the repercussions of a violent 
Caribbean. In the 1980s drugs were flown from South America 
through the Caribbean with a destination point in Florida, 
creating great havoc across the streets of south Florida. 
History seems to be repeating itself. While narcotraffickers 
moved to Central America and Mexico in the 1990s, we have seen 
a shift due to the Mexican President Caldern's tenacity. As 
Mexico works hard to defeat narcotraffickers, a balloon-like 
effect is triggered and trafficking is now originating in South 
America, cutting through the Caribbean and either heading to 
North Africa, Europe, or Florida. And as if a rising storm was 
approaching the islands of the Caribbean, we must make sure 
that these nations are prepared, Mr. Chairman. If we do not, 
this problem will not only affect the lives of the Caribbean 
people, but it will also affect the lives of thousands of 
Floridians and Americans across our great Nation.
    We have all seen the effects. High murder rates, increased 
air smuggling from Venezuela, overburdened prosecutors and 
judges, dead bodies in the canals and straits of the Caribbean. 
In fact, when looking at the statistics, it seems as if the 
battle between David and Goliath is occurring in the Caribbean 
nations. To add insult to injury, Venezuela's leader Hugo 
Chavez has become a coconspirator in this fight. Unlike 
President Caldern of Mexico, President Uribe of Colombia, both 
of whom deserve great recognition for their efforts, Hugo 
Chavez has ceded his airspace to thousands of drug-smuggling 
flights. Not only that, Hugo Chavez and his family have become 
partners in the narco business, taking a once proud nation to 
what now looks more like an abyss.
    As we address the Caribbean Basin Security Initiative, we 
must take a close look at some very important issues. For 
instance, do<greek-l>es deg. the Caribbean nations have the 
capacity to absorb the help they need? Is the new funding under 
the CBSI really new or will it simply replace old projects? How 
dangerous is it that some of the very countries that might be 
included in the CBSI are the ones that belong to ALBA, an 
organization that <greek-l>an  deg.is led by Hugo Chavez? 
Although we might have our own views on what should be done in 
the Caribbean, what have those nations said they would like to 
see done?
    As we hear from our panel today, these are some of the 
points that I would like to address. Thank you, Mr. Chairman. 
Again, this is an important hearing, and I think it has a huge 
impact on the United States and certainly our friends and 
neighbors in the Caribbean. Thank you.
    Mr. Engel. Thank you, Mr. Mack. I want to acknowledge the 
Ambassador of St. Vincent and the Grenadines, La Celia A. 
Prince, who just walked in. I was in her lovely country several 
months ago, as was Mr. Meeks.
    So I call on Mr. Meeks for an opening statement.
    Mr. Meeks. Thank you, Mr. Chairman. Thank you for your hard 
work and a hearty hello to our great friends, the ambassadors 
from all throughout the Caribbean. As I heard the chairman say, 
I was pleased to be at the most recent Summit of the Americas, 
where President Obama announced the creation of the Caribbean 
Basin Security Initiative. I in fact just recently returned 
from a trip to Haiti, where I saw firsthand the critical need 
for this kind of focus. When I pushed to have Haiti and the 
Dominican Republic inserted in the Merida Initiative, it was a 
step I hope in the direction of a broader coordination with the 
region. It is gratifying to see this initiative now on the 
horizon.
    I am certain that today our witnesses will lay out all of 
the many reasons why there is a critical need to work more 
closely in partnership with our Caribbean neighbors on issues 
of security. But I also hope to hear today not just about the 
numbers and crime and narcotics trade but also about the link 
it bears to economic development. I believe deeply that these 
are critically linked issues.
    Entrenched to poverty feeds the kinds of security questions 
we will consider today. We cannot consider security without 
discussing a comprehensive approach to addressing barriers to 
development. While poverty in the Caribbean has declined in the 
past, it remains high and many of the region's impressive 
social gains are at risk of eroding. Unemployment, particularly 
of youth, is a major issue, and there is a growing concern 
about recent increases in crime and violence across the region.
    I know that CBSI includes a component focused on social 
progress, and I hope our witnesses can expound on ways to 
ensure that this is, indeed, an effective aspect of the 
initiative.
    There is no doubt that the Caribbean countries face unique 
development challenges arising from their small size, proximity 
to drug production, vulnerability to natural disasters and 
economic volatility. As globalization has become the reality, 
they continue to confront a changing international paradigm 
with a significant transformation and the production structure 
of most economies away from traditional agriculture.
    Despite all these challenges, until the recent global 
financial crisis, the Caribbean continued to see a sustained 
growth in per capita incomes, with most of them becoming 
middle-income countries and achieving high levels of human 
development. These achievements were complemented and enhanced 
by several small and deliberate moves in early targeting of 
universal primary education, strong traditions of democratic 
participation and political stability for many countries, and a 
significant degree of regional integration despite significant 
differences and economic and social characteristics. Yet the 
Caribbean still struggles to reach its potential and the 
reality of the drug trade and crime overtaking of even the 
Caribbean's highest income countries puts the region at a 
comparative disadvantage in achieving international 
competitiveness.
    Unfortunately, it has been the case that just when many 
Caribbean nations find their footing in an industry and trade 
deepens in a positive direction, the rules change or the extra 
help isn't provided to help sustain this advantage. Clearly we 
need to do a better job of helping advance trade and 
development. In such an environment business as usual no longer 
will suffice neither for the individual countries nor our own 
country's sluggish efforts toward the region.
    Adapting to the demands of this new world will require a 
much greater focus on sustaining and improving growth and 
competitiveness. When all is said and done, nothing matters if 
the people of the Caribbean do not feel the impact of the 
democracies. It is easy to turn to a life of crime, as there is 
no other way to put food on the table. We cannot decouple 
security and social well-being. We never have and we never 
will.
    So I look forward to hearing from our witnesses that will 
be testifying later today, listening and learning and working 
together with my friends from the Caribbean.
    Mr. Engel. Thank you, Mr. Meeks, and we welcome Mr. 
Delahunt here. I would like to invite him, if he would like, to 
make a statement.
    Mr. Delahunt. Well, thank you, Mr. Chairman. And again, 
welcome to the CARICOM and representatives of the nations in 
the Caribbean. I know you and other members of the subcommittee 
give them high regard, as do I. I want to extend a personal 
welcome to them.
    Let me be brief since I am not a member of the committee, 
but let me associate myself with the remarks of the vice chair, 
Mr. Meeks, and let me commend the passage of your legislation 
and also the work of Mr. Mack and his sponsorship that creates 
a commission. I think there has to be a sustained review in 
real-time in terms of all of the issues impacting security in 
the Caribbean and neighboring countries. I think it really 
makes sense. Well done.
    With that, I yield back.
    Mr. Engel. Thank you, Mr. Delahunt. And now it is my honor 
once again to welcome Ms. Julissa Reynoso, who is the deputy 
assistant secretary of state for Caribbean, Central American 
and Cuban Affairs. She has a wonderful resume. I won't read it 
all because it would take too long. But she is an attorney by 
trade and prior to joining the U.S. State Department practiced 
law in New York, focusing on international arbitration and 
antitrust law. She has a wonderful record, a fellow at New York 
University School of Law and Columbia Law School, and I saw the 
University of Cambridge in the U.K. and J.D. from Columbia 
University School of Law, and you clerked for a Federal judge. 
And I could go on and on, but we really want to hear from you, 
and we welcome you and we are all ears.

 STATEMENT OF MS. JULISSA REYNOSO, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Reynoso. Thank you, Chairman and Ranking Member Mack, 
members of the committee. I am honored to appear before this 
subcommittee today so soon after taking up my new duties as the 
deputy assistant secretary responsible for Central American, 
Caribbean, and Cuban affairs.
    If it is acceptable to you, Mr. Chairman, I would be happy 
to make a brief statement so I have more time to address any 
questions the committee may have and submit my full statement 
for the record.
    Mr. Engel. Without objection, so moved.
    Ms. Reynoso. Caribbean Basin Security Initiative, CBSI, 
embodies a new approach and a tangible commitment, greater 
shared security throughout the Caribbean. We have achieved 
effective partnerships with Mexico, Colombia, and Central 
America. It is time for the Caribbean, the heart of key 
trafficking routes, to become part of this broader network of 
cooperation to protect our peoples and institutions. Stemming 
the flow of narcotics remains forefront in our national 
interests.
    Most of the drugs coming into the United States pass 
through Central America and Mexico. We expect, however, that as 
the Merida Initiative makes progress in Mesoamerica there will 
be a ``balloon effect'' in the Caribbean. Governments in the 
region are, however, hampered by a lack of human, technical, 
and physical capacity. They cannot keep pace with cash flush 
transnational criminal networks.
    The danger of increased trafficking and negative spillover 
effects are too great to ignore. The question is not should the 
United States take action but how best to do so in partnership 
with our Caribbean allies and other international partners.
    A defining purpose of our policy in the Western Hemisphere 
is to build effective partnerships to better develop, mobilize, 
supply, and sustain the capacity of the region to accomplish 
shared objectives. In the security sector, this is reflected in 
a commitment to advance citizen safety. Insecurity is a 
widespread concern in the region, and it is felt by people in 
many different ways. By grounding our efforts in ``citizen 
safety'' we are underscoring that at heart all of our various 
concerns boil down to the safety of human beings. It is an 
effective way to link our specific concerns with the related 
concerns of people throughout the region.
    Although the nature of security challenges faced by 
countries in the region varies, they are increasingly 
interconnected. Hence, our responses must be coordinated and 
integrated. We have to efficiently mobilize the efforts of all 
our agencies and partners to meet their goals in the most cost-
effective way possible. A one-size-fits-all approach to the 
hemisphere won't work. Instead, we are implementing distinct 
tailored initiatives that address the differing circumstances 
prevalent in different subregions, and ensuring they join up 
seamlessly.
    Mr. Chairman, I thought it might be useful to briefly 
highlight the trajectory that has brought us to this point. 
Work on CBSI began in earnest following unprecedented efforts 
by Caribbean countries, the United States, and international 
partners to provide security for the 2007 Cricket World Cup. 
That year Caribbean and United States leaders adopted the 
CARICOM-U.S. Initiative to combat illicit trafficking in small 
arms and light weapons. In April 2008 Caribbean leaders agreed 
to develop a regional security strategy and plan of action, 
focused on strengthening institutional and operational 
cooperation throughout the region and with international 
partners. We seized the opportunity presented by their 
initiative to foster a greater security partnership with them.
    At the Government of Trinidad and Tobago's request for 
security assistance at the April Summit of the Americas 
presented another opportunity to advance our cooperative 
efforts. These examples demonstrate the confluence of events 
surrounding the genesis of this partnership.
    It is worth noting the United States' successful engagement 
in these efforts was due to extraordinary cooperation, 
coordination among U.S. agencies, agencies that continue to 
play active roles in these new partnerships.
    President Obama recognized the need for deeper security 
cooperation with the Caribbean in the beginning of his 
administration. When he met with leaders from the hemisphere at 
the Summit of the Americas in Trinidad and Tobago, he announced 
an investment toward this effort, the Fiscal Year 2010 request 
of $45 million for CBSI pending congressional approval.
    We recognize that difficult economic times require 
difficult economic choices. We are planning programs based on 
realistic budget appraisals, keeping in mind the United States 
cannot bear all the cost. We understand that the conference 
report includes $37 million for CBSI, and we are optimistic 
that Congress will pass it in the coming week.
    We are pleased the Congress recognizes the importance of 
partnering with the Caribbean States on security. We look 
forward to working with you on further developing the CBSI. 
Since April, the State Department has led interagency teams to 
meet with Caribbean partners on three occasions in a 
consultative process to plan a bold initiative built on the 
fundamental premise of shared responsibility and unity of 
purpose. Together, we have developed a common regional 
strategy, an operational framework, and a comprehensive needs 
assessment that identifies the challenges, available resources, 
and institutions to address them and what would be required to 
sustain a long-term approach, focusing on three strategic 
objectives: One, substantially reducing illicit trafficking; 
two, advance public safety and security; and three, promote 
social justice. Assistant Secretary of State Arturo Valenzuela, 
responsible for managing the development and implementation of 
our hemispheric security partnerships, will host the inaugural 
Caribbean-U.S. Security Cooperation Dialogue in early 2010. He 
will subsequently meet with his counterparts on an annual basis 
to review progress made in implementing CBSI and developing 
this partnership.
    We envision CBSI as a multi-year, multifaceted security 
partnership, one which will require sustained resources and 
political will to succeed. CBSI, like Merida, and other 
hemispheric partnerships, will mature at its own pace and with 
its own particular needs and benefits. We have to build into it 
from the start the sort of flexibility that will let us adjust 
programs and shift our focus for regional capacity strengths.
    In closing, Mr. Chairman, I would like to reiterate an 
important element of this partnership, our close ties to the 
Caribbean. Caribbean Americans have built lives throughout the 
United States enriching our society and communities. Through 
CBSI we can provide the next coming generations of Caribbeans 
in America the safety and security to which they are 
inalienably entitled to.
    Thank you, and I look forward to answering any questions 
you may have today.
    [The prepared statement of Ms. Reynoso 
follows:]<greek-l>Julissa Reynoso deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Well, thank you very much, Madam Secretary. I am 
going to ask a couple of quick questions. You may have heard 
that the bells have gone off. We have a series of votes. So I 
am going to try to ask some quick questions and see if we can 
wrap it up so we can then go to vote and then come back after 
the vote for the second panel.
    As you mentioned, and as I mentioned, the Foreign 
Operations appropriations bill will fund CBSI for $37 million 
instead of the $45 million in initial funding which President 
Obama announced. I find this disappointing. I have conveyed 
that disappointment because I think we need to meet our 
commitments to our friends in the Caribbean.
    Will the State Department reprogram funds in order to reach 
the $45 million in order to fully fund CBSI? That can be done, 
and I will certainly support reprogramming funds to make this 
important commitment if it is done.
    Ms. Reynoso. Thank you, Mr. Chairman, for the question. We 
just learned of the $37 million as of last night. So at this 
point we are at the point of assessing if that is--if we can 
work with the programs we already have in mind and look at the 
budget we already developed. So the answer to your question is, 
we are still trying to figure out internally whether we will 
need to proceed with reallocation.
    Mr. Engel. Could you please take back that that would be my 
strong recommendation, and you certainly would have my strong 
support. If you were able to do that, I would appreciate that.
    Let me ask you, this is also a quick question. When the 
Merida Initiative was first announced, Congress was told that 
it was a 3-year program, and now we are talking about a second 
phase of Merida beyond the 3-year period. And this makes sense 
to me, but it would be helpful for Congress to know from the 
start the length of any security assistance program announced 
by the administration. So let me ask you, how long do you 
envision CBSI to be? Is this a one-time appropriation or a 
multi-year program?
    Ms. Reynoso. Thank you, Mr. Chairman. As of right now, we 
are not certain how many years CBSI will take. We are committed 
to setting forth a strong foundation and hence the request for 
the funds. We know that it will likely be a multi-year program, 
but we are not certain as to how many years that will be since 
as of today we haven't officially launched the initiative. So 
as things are rolled out, assessed, how long each portion of 
the initiative will need in order for it to be fully developed 
and implemented.
    Mr. Engel. Let me ask you this final question from me. How 
would you compare CBSI to the Third Border Initiative, which 
was implemented by the Bush administration? How is the focus, 
implementation, or resource allocation different in CBSI than 
in previous efforts? And let me combine that with, are projects 
similar to those once funded under the Third Border Initiative 
still funded by USAID's Caribbean regional program or other 
spigots of U.S. assistance to the region? And how will you 
ensure that CBSI is not forgotten in a few years as was the 
case with the Third Border Initiative?
    I know those are a bunch of questions but they are all 
related.
    Ms. Reynoso. I will try to answer, and please let me know 
if I don't answer completely, Mr. Chairman. The Third Border 
Initiative, from my understanding, was a program designed to 
strengthen the capabilities of Caribbean institutions. We 
believe that the Third Border Initiative, or TBI, as it is 
known, was a predecessor to what we are now deeming CBSI. CBSI 
is an initiative that really came from our Caribbean partners 
as they organize and coordinate amongst themselves and came to 
us with an initiative that we believe is much more 
comprehensive and integrated than TBI. The major difference in 
my mind is the fact that the Caribbean nations themselves and 
Caribbean partners were able to coordinate and orchestrate this 
initiative, CBSI, as opposed to the TBI initiative, which 
wasn't as integrated and comprehensive as what we are proposing 
here.
    Mr. Engel. All right. Thank you.
    Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman. And thank you for your 
testimony today. You and I both talked about the balloon effect 
when it comes to drugs and the flow of drugs. Now that Mexico 
is working so hard to try to stop the flow of drugs and the 
drug cartels in their country we see this now moving back 
toward Central America, South America, and certainly there is a 
concern that where those drugs are going and whether it is to 
Europe, Africa, or the Caribbean, I would like to get your 
thoughts on what can we do to put pressure on Hugo Chavez to 
stop allowing Venezuelan airspace to be used for the delivery 
of drugs, to transport drugs through Venezuelan airspace. And 
specifically, will you be an advocate with the administration 
to ensure that we have a policy that doesn't allow Hugo Chavez 
to continue to use his airspace as a way to let drugs go 
through his country that ultimately will affect the Caribbean 
and the United States? And also what is what your thoughts are 
since the United States has cut off aid to Honduras. We have 
seen drug trafficking increase in Honduras. Again, will you be 
an advocate to restore aid to Honduras so we can continue our 
partnership to stop the drug trade from moving through 
Honduras?
    So if you could answer those two questions, I would 
appreciate it.
    Ms. Reynoso. Thank you, Congressman. On the question about 
Venezuela, Venezuela is not a member obviously of the CBSI 
initiative. The Caribbean nations have come to us of their own 
will, have not asked Venezuela to be a part of this initiative.
    Mr. Mack. If I may, but you would agree that Venezuela--
when you talk about the balloon effect that it is Venezuela's 
airspace that these drugs are moving through that ultimately do 
come into the Caribbean. So I don't know that you can separate 
the two issues. You have got to look at how are some of these 
drugs getting into the Caribbean in the first place? And if we 
know that they are coming through Venezuela, then certainly it 
would be in your interest and in our interest and in the 
administration's interest to do something about that.
    Ms. Reynoso. Yes, Congressman Mack. My colleagues at the 
State Department who are more familiar with the situation in 
Venezuela than perhaps I am have clearly indicated that we 
keenly promote that Venezuela, along with any other nations in 
the region, the Caribbean basin, do whatever they can to 
prevent the trafficking of illegal drugs either through air or 
through the maritime capacity.
    So I hear what you are saying, but I guess I agree that we 
have already indicated to the Venezuelans that that is 
something that we need their cooperation with.
    Mr. Mack. Well, I would suggest then that you might want to 
refocus on that issue because not only is Venezuela and Hugo 
Chavez not helping in stopping the drug flow but Hugo Chavez is 
actually helping, and we need to have a strong policy that says 
we are not going to stand for this. When he kicks out the DEA 
and others, clearly that is a sign that he doesn't want to have 
a partnership in stopping the drug flow, and he is a part of 
the problem.
    Mr. Engel. I think we are going to hold it here. I am going 
to have to ask you to wait. I thought we were finished before. 
I know we will still have some questions. I know Mr. Meeks and 
Mr. Delahunt had some questions and Mr. Mack perhaps. We will 
go vote. There will be a series of three votes. So we should be 
back here in about 20, 25 minutes. We are in recess.
    Ms. Reynoso. Thank you.
    [Recess.]
    Mr. Engel. The hearing will reconvene.
    Let me ask one or two questions before I turn to Mr. 
Delahunt, who I know has some questions.
    Congress expanded the Merida Initiative to cover Haiti and 
the Dominican Republic. Does this mean that CBSI will exclude 
Haiti and the Dominican Republic, or are both countries 
eligible for funding under both efforts?
    Ms. Reynoso. Thank you, Mr. Chairman.
    Yes, Merida included funding for the entire island of 
Hispaniola, the Dominican Republic and Haiti. But we believe at 
this point, given the fact that the Dominican Republic and 
Haiti are integral parts of the Caribbean, that it is the best 
fit for them and they have themselves acknowledged as such, it 
is the best fit for them to be part of CBSI. And so we have 
been working with both the Dominican Republic and Haiti 
throughout the process in evaluating the CBSI Initiative. So 
they will be part of that initiative and no longer part of 
Merida.
    Mr. Engel. Thank you.
    There have been existing bilateral efforts between the 
United States and various Caribbean countries to work on the 
issue of security and drug trafficking, and there have already 
been meetings in Suriname and Barbados to prepare for the CBSI. 
Could you comment on the state of existing cooperation and your 
views of areas that need to be strengthened in developing this 
Caribbean Basin Security Initiative? How does it compare with 
the support provided by the Department of Defense and of the 
U.S. agencies in the region?
    Ms. Reynoso. Thank you, Mr. Chairman.
    We have had several meetings already with our Caribbean 
partners, and of course, we have also met internally with other 
agencies--the Department of Defense, Justice, Homeland Security 
and USAID, and within State, the U.S. State Department 
internally as well to assess where we should go with the 
initiative. At this point we have come up with preliminary 
assessments of our objectives.
    And our objectives are, one, they are to reduce illicit 
trafficking. Secondly, to advance public safety and security. 
And thirdly, to promote social justice.
    We have preliminary documents that deal with the 
assessments and also a preliminary framework agreement and a 
plan of action that we are evaluating. And the goal is in early 
2010 to have a meeting with our Caribbean partners which 
assistant secretary Arturo Valenzuela will chair, along with 
his counterparts in the Caribbean, whereby we will look at the 
documents and formalize and finalize them and officially launch 
the initiative.
    Mr. Engel. Let me ask you, based on what you just said, 
could you evaluate the progress made in the working group 
meetings made in Suriname and Barbados, and what is the next 
step for CBSI since the ministerial was moved to 2010, and what 
do you envision to be the main challenges in launching the 
CBSI?
    Ms. Reynoso. Thank you, Mr. Chairman.
    We have received documents and assessments from our 
partners, and we ourselves have done our own evaluations 
internally, and we believe we are at a point where we can 
officially launch the initiative early next year.
    In terms of our obstacles, we will continue monitoring the 
initiative and the rollout of the initiative. So we note that, 
of course, we will be mindful of how we roll out the 
initiative.
    Mr. Engel. What countries seem particularly interested in 
working with the United States on CBSI?
    Ms. Reynoso. Well, at this point, Mr. Chairman, we have 
been working effectively with all of the members of the 
catacomb plus the Dominican Republic. So indeed we think we 
have been working effectively with all of the Caribbean 
nations.
    Mr. Engel. Thank you. When we broke for the votes, Mr. Mack 
was in the middle of a series of questions, so I would like to 
turn the floor over to him.
    Mr. Mack. Thank you, Mr. Chairman.
    We were having a discussion about Venezuela and the drug 
trafficking through Venezuelan air space, and we also touched 
on Honduras. I think we both expressed ourselves well about 
Venezuela, unless you have anything to add to that.
    Ms. Reynoso. Just one thing. On the Venezuela question, I 
wanted to make clear that since our ambassador returned to 
Caracas, one of the primary objectives of our mission there is 
talking with the Venezuelans on counternarcotics and 
counterterrorism. So these are strategic parts of our policy at 
this point.
    Mr. Mack. Well, I hope we are successful because right now 
I don't think Hugo Chavez has any intentions of standing with 
the United States and stopping the drug trafficking through 
Venezuela. It is a shame.
    We talked a little bit about Honduras and whether or not 
you would be an advocate for the return of aid and support to 
Honduras. Since the United States has stopped aid and helping 
with drug trafficking issues, we have seen an increase in drug 
flows into Honduras, and so I would like to see if you would 
like to comment on that.
    Ms. Reynoso. Thank you for the question, Mr. Congressman.
    Our goal is to work with Honduras as soon as we can. At 
this point we do not believe and we do not think that they have 
restored democratic order and we have been working with 
Honduras to get to that point.
    Mr. Mack. They are one country that has actually stood up 
and defended its freedom and democracy and because of their 
actions, democracy is alive and well and strong in Honduras, 
and I think they have proved to the world, by having this last 
election and by their actions, that democracy is alive and 
well. And I would suggest that a message to the Honduran people 
is that we support them in their continued effort to support 
their democracy. They have done nothing but defend their 
constitution and it is something that we should celebrate 
instead of pulling aid that ultimately has helped the increase 
of drug flow in Honduras.
    Just a couple of days ago we saw the top drug fighter in 
Honduras be assassinated. So I think the U.S. policy is wrong 
and we need to quickly show the Honduran people that we support 
them. I want to move on from that because I am a supporter of 
what we are trying to do in the Caribbean, and I signed a 
letter with the chairman about full funding and I think it is 
vitally important, but I have a few other questions.
    Some have said in Central America some of the reasons some 
of the money wasn't able or the aid wasn't able--it took so 
long to get out because they weren't ready or capable of 
receiving it. Do you believe that the Caribbean countries are 
ready?
    Ms. Reynoso. Thank you for the question, Congressman.
    Based on the ongoing conversations and dialogues we have 
had with our Caribbean partners over the last several years, 
and the assessments that they themselves have conducted and we 
ourselves have also conducted in cooperation with other 
agencies, we do believe that our Caribbean partners are ready 
to work with us and cooperate with us in the rollout of this 
initiative.
    Mr. Mack. Thank you, Mr. Chairman.
    Mr. Engel. Thank you. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    I think I heard the ranking member reference the fact that 
there has been an increase, I think he might have used the 
words ``dramatic increase'' in Honduras since the coup. I don't 
know where he secures that particular information, but from 
your knowledge has there been a dramatic increase since the 
coup that occurred I think in July to now, is there any data 
that indicates that there has been such an increase or a spike 
up that you are aware of?
    Ms. Reynoso. Congressman, thank you for the question.
    I do not have an answer to your question. I am not aware of 
that, but I am happy to go back and research that.
    Mr. Delahunt. I would be interested because in such a 
relatively short period of time, that information would be made 
available.
    I don't want to spend too much time on Honduras.
    Mr. Mack. Would the gentleman yield on that point?
    Mr. Delahunt. Of course.
    Mr. Mack. This is information I obtained when I took my 
trip to Honduras and spoke to members of our military in 
Honduras.
    Mr. Delahunt. Reclaiming my time, when did you take your 
trip?
    Mr. Mack. And by the way, I never called it a coup.
    Mr. Delahunt. I know you didn't call it a coup. I'm calling 
it a coup. You took your trip in August?
    Mr. Mack. I took my trip in August, and they already saw an 
increase.
    Mr. Delahunt. In 6 weeks they saw an increase?
    Mr. Mack. Yes. That is from our military mouth.
    Mr. Delahunt. I find that rather stunning that our military 
could find in a 6-week period of time, when we were not there, 
that kind of a dramatic increase. But you and I should have a 
conversation about that, and you can educate me.
    Mr. Mack. I would be happy to.
    Mr. Delahunt. But I find that remarkable. I find that 
stunning that we have that kind of information available. But 
let me get back to the Caribbean.
    I noted that the President indicated that he was open to 
having dialogue with Cuba on a variety of different issues, 
including the issue of drugs. I also note in the most recent 
State Department narcotics control strategy review, there is a 
statement that says the Government of Cuba regularly detects 
and monitors suspect vessels and aircraft in its territorial 
waters and air space. In cases likely to involve narcotic 
trafficking, it regularly provides detection information to the 
United States Coast Guard. Have we dealt with the Cuban 
Government in terms of the issue of drugs?
    Ms. Reynoso. Thank you for the question, Congressman.
    We do cooperate with the Cubans on the issue of maritime 
Coast Guard in particular. To my knowledge, we have not had 
formal conversations on this issue with them. But we do 
understand that Cuba, like the rest of the Caribbean nations, 
is very concerned with the trafficking that is occurring 
throughout the Caribbean.
    Mr. Delahunt. I guess my point is that if we are concerned 
about drugs coming into this country, does it make sense to 
include Cuba in the effort to reduce the in-flow of narcotics, 
illegal narcotics to this country?
    Ms. Reynoso. At this point, Congressman, specifically with 
respect to CBSI, the Caribbean, our Caribbean partners and we 
as their partner have not found it opportune to bring Cuba into 
the discussion.
    Mr. Delahunt. I guess what I am saying, Madam Secretary, 
has the Caribbean community been surveyed? Have each of the 
countries, many of who, have ambassadors present in this room 
now, have they been inquired as to whether it makes sense in 
terms of the flow of illegal narcotics into the United States, 
to incorporate and develop a collaborative effort with the 
Cuban Government that according to the information that our 
State Department presents, has been extremely cooperative. In 
fact, in February, the Cubans notified the Coast Guard and it 
resulted in a joint multinational interception of significant 
drugs with a successful prosecution.
    And, in fact, the individuals were sent on to Columbia and 
then extradited back into the United States and are being 
prosecuted. How can we have a Caribbean drug Security 
Initiative with a focus on drugs if we don't include the 
Cubans?
    Ms. Reynoso. Thank you, Mr. Congressman.
    We, again, as you noted, we do have cooperation, ongoing 
cooperation with the Cubans on coastal issues. And it is to my 
knowledge an effective collaboration. Of course, many of our 
Caribbean partners have relationships, in fact, all of them 
have place of diplomatic relationships with Cuba, and they do 
have cooperation narcotics and other forms of illegal activity. 
So there is an ongoing battle internally in the Caribbean in 
terms of the cooperation with Cuba. But with respect to this 
particular initiative, Cuba is not a member or part of this 
initiative.
    Mr. Delahunt. What I am saying, Madam Secretary, and I 
appreciate your answer, there is an opportunity that I think 
exists at this point in time to bring Cuba into this particular 
effort to make it, I think it was the chair of the committee 
who said we must take a holistic view. I think we have to take 
a larger geographical view in terms of maritime interdiction 
that puts aside the politics. Because if we are really 
concerned about drugs, attempting to do this without Cuban 
engagement makes no sense. And actually, that was an 
observation that was made by the former commander of SOUTHCOM, 
the retired General Hill, who indicated there is no reason not 
to bring Cuba into this equation to help our own national 
security interests and obviously that of the Cubans.
    So I would commend and recommend that you go back, speak to 
the Secretary and discuss this issue because otherwise we are 
doing a disservice, I believe, in terms of what I know is our 
efforts to work with our Caribbean partners in an effort to 
reduce that drug trafficking that everybody is concerned about.
    Ms. Reynoso. Thank you. Thank you, Congressman.
    Mr. Engel. Thank you, Mr. Delahunt.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I want to talk about 
the Caribbean as the first part of my questions. As I stated in 
some of my opening remarks, I know that CBSI is supposed to be 
broader than say the Plan Colombia or the Merida Initiative was 
in that some of the funds should be able to be utilized for 
natural disasters, mitigation and recovery, and a full range of 
projects yet to be determined.
    If I understand it correctly, it is being drafted in 
broader terms. Moreover, we have individuals like the 
Department of Defense, the U.S. Coast Guard, the Drug 
Enforcement Administration, who also provide support for 
counternarcotics and security-related activities in a number of 
Caribbean countries that traditionally have not been counted as 
foreign aid, and so it doesn't go against money as foreign aid.
    And several United States agencies have supported port 
security improvements in the Caribbean in recent years, and 
several Caribbean ports participated in the Container Security 
Initiative of the Department of Homeland Security and megaports 
initiative with the Department of Energy. As a result, it is 
often difficult to get an accurate sense on how much support 
the United States is providing a particular country in the 
Caribbean or to the subregion as a whole. That being said, it 
seems to me it is unclear whether the programs to be funded 
under CBSI are ones that might have been funded anyway through 
an existing program under USAID's Caribbean regional program or 
the State Department's Western Hemisphere regional program.
    So I am trying to see, number one, are these things that 
were funded before? Is the CBSI going to be an addition 
thereto? Are we reducing some of the other money coming from 
other places, so we know what we are doing there? And also, 
what is also key, when you talk about all of these other 
agencies, and we had the problem here in America when we talked 
about homeland security, is the harmonization of all of these 
agencies within the United States Government so they can 
support the Caribbean? How do we know what the one hand is 
doing as opposed to the other so it is better coordinated so 
there is good outcome?
    Or has there been any talk about harmonization, and dealing 
with trade capacity, if there is no harmonization there is a 
problem. We don't get the results that we are looking for or 
the best bang for the money. Let me just ask those questions. 
Can you tell me where the harmonization is? Can you tell me 
whether or not they take away from some of the things we are 
already doing, if you know?
    Ms. Reynoso. Thank you, Congressman.
    The initiative aims to do something different from the 
prior initiatives that we have had in the region on security, 
and that is coordinate in an integrated way with the different 
security ministries and the defense sector with all of the 
countries of the Catacomb and the Dominican Republic. It is 
much more exhaustive than prior initiatives and events that we 
have had on the security side with our Caribbean partners. It 
involves many more countries and it is much more elaborate.
    Also, as opposed to prior initiatives, and again, I can't 
go into detail as to each one of those initiatives because I 
don't have all of the information, but broadly speaking, as 
opposed to other specific initiatives, this initiative was 
really spearheaded by the Caribbean itself, by our Caribbean 
partners. They were the ones that started the discussion 
internally and then came to us with a vision that we ended up 
sharing with them.
    As to the point on the coordination with the agencies, we 
have been in continuous communication with the different 
agencies in the U.S. Government, and this is something that we 
take very seriously and that we think at this point we are 
doing effectively.
    Mr. Meeks. That is my concern. I want to make sure that it 
is clearly defined so we understand what the harmonization is, 
because oftentimes I hear about harmonization, but when we go 
to follow-up, what has taken place, there seems to be something 
missing.
    So I hope at some point, especially as we get toward 
funding, we become clear on how we are harmonizing, and that 
there is the active and continued participation of the 
Caribbean governments that we are all sitting down at the same 
table, and making sure that we are moving in the same direction 
and not one going one way or the other.
    Let me ask quickly in that same vein, because this is 
supposed to be broader, when I talked to the distinguished 
diplomats sitting in the front row, one of the question that 
often comes up is the question of deportees. I am wondering 
within this initiative, they talk about whether or not there is 
some kind of reentry program or something of that nature in 
regards the deportees because we just send them and let them 
out and it has such a negative impact on drugs and other 
criminal activity.
    So within the CBSI, is there anything specific that we are 
looking at that can help with the deportees that we are sending 
back?
    Ms. Reynoso. Thank you, Congressman.
    With respect to the issue of criminal deportees, we 
understand our Caribbean partners have shared concern on that 
issue. We believe that CBSI, because it is so integrated and 
comprehensive, and because the relevant agencies of the 
respective Caribbean nations will be involved in a continuous 
dialogue, will serve as a platform for the Nations to talk 
about and assess how best to handle and integrate these 
citizens of their countries.
    Mr. Meeks. But just be aware if we are trying to combat the 
transshipment of drugs, et cetera, we cannot, you know, just 
leave these countries where a lot of these individuals who get 
access here and learn their skills here and then go back to--
are deported back to the Caribbean islands and then they start 
their own enterprises, we have to make sure that we are focused 
at the CBSI at least plays a role in trying to address that 
situation also.
    Without that, as I said in my opening statement, because we 
also have to figure out the lengths to the economic development 
of these countries. And to consider one without the other, I 
think we are spinning wheels. I think that is why the CBSI 
money should be broadly utilized and the coordination and 
harmonization is extremely important, and listening to the 
leadership in the Caribbean is extremely important.
    Ms. Reynoso. Congressman, on the issue of the economic 
justice and social justice issues, which you care so much about 
and I do as well, of course, part of our agenda and part of the 
agenda of the Caribbean nations is assessing how best to deal 
with the root cause of the problems, as you stated. Therefore, 
it is, of course, a major priority throughout our development 
of the initiatives as we roll these programs out to deal with 
the social justice issues, with the justice reform and other 
root cause problems that will tackle the issues before they 
actually become criminal issues.
    Mr. Meeks. Lastly, and I just can't refrain, my good 
friend, the ranking member, let me just say in listening to a 
lot of your questioning, we can't have a policy I think that is 
just built on a one-legged stool. And Venezuela, everything 
focused on Venezuela, we are dealing with a one-legged stool. I 
have yet to see a stool that stands on one leg. I think we need 
to broaden it. Just quickly, I went to do some minimal research 
in talking to some of our folks, and I know that there is 
questions because of that whole area of the borders and the 
drugs, transshipments of the drugs going from various countries 
to others, and I am told there are at least 242 illegal 
runways, we need to prevent criminal groups from using running 
strips and they have seized airplanes and they have seized over 
1,100 kilograms of cocaine in recent operations.
    I think we need to take regional approaches, as we are 
doing in the Caribbean. If we are really going to fight drugs, 
we need regional approaches. And, yes, get everybody working 
together and make some improvements. We digressed from 2005, 
but we need to pick that up and move forward with that.
    I yield back the balance of my time.
    Mr. Engel. I am going to give the ranking member a chance 
to answer if he wants to.
    Mr. Mack. I welcome the debate on this issue because I 
think it is important to the discussion. I obviously have a 
different opinion. I believe that Hugo Chavez is not an honest 
broker, not a partner and, in fact, is using this drug trade to 
destabilize the region for his own benefit. I think it is very 
dangerous and we can have differences of agreement on that. 
Thank you for the opportunity to respond, Mr. Chairman.
    Mr. Engel. Thank you. Madam Secretary, thank you so much 
for your testimony. I know this is your first time here since 
you are newly appointed but I am sure it will not be your last. 
I opened up by saying that I knew you had to be good because 
you are from the Bronx, but now I am really convinced.
    Mr. Meeks. Mr. Chairman, as a New Yorker, I want to say 
welcome aboard. We are all very proud of you, and we know we 
will be working closely with you in the future. I stole my wife 
from the Bronx, so the Bronx can't be a bad place.
    Mr. Delahunt. Mr. Chairman, the only problem with the Bronx 
is that is where the New York Yankees reside.
    Mr. Engel. Someone once told me there is something called 
Red Sox Nation, but it is really confined to the nation of 
Massachusetts, whereas the Yankees are worldwide.
    I want to tell Mr. Delahunt, when I have been to some the 
Caribbean nations, I have seen many, many average citizens 
wearing the New York Yankees hat, but I haven't seen any 
wearing the Boston Red Sox hat.
    Mr. Delahunt. Mr. Chairman, I don't want to embarrass our 
guest from the Caribbean, but I dare say if we asked for a show 
of hands, Red Sox Nation would far exceed anything that the 
rich, affluent Yankees of New York would be able to provide.
    Mr. Engel. Well, I am going to end the hearing on one note 
and that was I just wanted Mr. Delahunt to know what a good 
time I had at the World Series this year. On that message, we 
will allow our secretary to go and call the second panel. Thank 
you very much.
    I am now pleased to welcome our distinguished second panel: 
Dr. Ivelaw Lloyd Griffith, provost and senior vice president 
for academic affairs, York College, of the City University of 
New York. And I am a graduate of the City University of New 
York of Lehman College. He holds the rank of professor of 
political science and is a specialist on Caribbean and Inter-
American security, drugs, crime and terrorism issues.
    Dr. Anthony Maingot is a writer and scholar on Caribbean 
issues. He was previously a professor and dean of international 
affairs at Florida International University and has taught at 
the University of the West Indies and Yale University.
    Stephen Johnson served as deputy assistant secretary of 
defense for Western Hemisphere Affairs from 2007 to 2009, in 
charge of U.S. Hemispheric Defense Policy and Security 
Relations. He is also previously appeared before this 
subcommittee. I want to welcome all three of you.
    We are going to let Mr. Johnson go first because he has to 
leave, and we want to get the benefit of his testimony before 
he has to leave.

   STATEMENT OF MR. STEPHEN JOHNSON (FORMER DEPUTY ASSISTANT 
      SECRETARY OF DEFENSE FOR WESTERN HEMISPHERE AFFAIRS)

    Mr. Johnson. Chairman Engel, Ranking Member Mack, and 
distinguished members of the committee, thank you very, very 
much for your invitation to be here, and certainly my 
commendations for what they are worth for this enterprise, for 
directing your attention to the Caribbean and also 
congratulations are due for your initiative on Western 
Hemisphere drug policy.
    I am delighted to be able to testify on this timely subject 
of the President's new Caribbean Basin Security Initiative. For 
the record, I would like to state that my views are my own and 
they don't reflect the U.S. Government or any entities or 
individuals with whom I consult.
    In my experience as a foreign policy analyst and a former 
Department of Defense official, I have come to know the 
Caribbean as a complex region led by small governments that can 
be easily overwhelmed by big challenges. Today, those security 
challenges are local crime and transnational drug flows. To a 
lesser degree, the region is also a target of influence of 
other countries attempting to build alliances of their own, 
such as Venezuela, but those will only be successful if the 
United States ignores its friends in the region.
    Our alliances with our Caribbean neighbors are key to the 
security of the southeastern maritime approach to the United 
States, small but significant trade relationships, the freedom 
of sea lanes leading to the Panama Canal and the safety of the 
region as a major tourist destination. Friendly ties have 
evolved against a backdrop of past U.S. Intervention and 
questions over genuine interest. To strengthen security 
cooperation, we must keep promises that we have already made, 
build on relative strengths of each partner, and work smarter.
    The Obama administration's Caribbean Basin Security 
Initiative is a great start. However, it should be a multi-year 
effort and, in my opinion, $45 million may not be enough.
    Overall, the region is complex and diverse. It covers a 
whole lot of water. Most governments celebrate free regular 
elections with the exception of Cuba and Haiti. Free economies 
range from the Dominican Republic with a $44 billion gross 
domestic product to tiny Dominica with a $364 million gross 
domestic product. The Bahamas rank<greek-l>s deg. as one of the 
top countries in the world of annual GDP per capita at $30,700. 
Haiti is the poorest in the hemisphere with 80 percent of the 
population under the poverty line.
    Capacities also vary toward cooperation on mutual interest. 
On one hand, the region benefits from a 15-member Caribbean 
community with five associates and 7 observers. The eastern 
Caribbean also hosts a 7 member regional security system. Yet, 
tiny eastern Caribbean countries have no tax base to maintain 
significant security operations. And Jamaica has the fourth 
highest per person debt burden in the world where the GDP to 
debt ratio stands at 128 percent. For the last 20 years, Haiti 
itself has been a security challenge.
    The region's security environment is also troubling. 
Sandwiched between North and South America, and consisting 
mostly of open water, the Caribbean is a smugglers paradise. 
Haiti and the Dominican Republic have borne the brunt of most 
of the trafficking. The good news is only about 16 percent of 
the flow is moving through that region. But the bad news is 
that if Mexico and the Central American countries improve their 
interdiction capabilities under the Merida Initiative, as 
Secretary Reynoso stated, trafficking routes could likely shift 
east.
    To the west, Jamaica has become the region's prime 
marijuana producer and exporter if we believe the State 
Department's annual INCSR report. Its homicide rate hovers 
close to 50 per 100,000 persons, rivaling Honduras, Venezuela 
and El Salvador. Trinidad and Tobago is not far behind. There 
the number of murders has risen from 118 in 2000 to 550 in 
2008, or about 41 per 100,000 persons. In both cases there is a 
symbiotic relationship between smuggling and guns.
    Since 9/11, port security has become increasingly important 
in the region. Caribbean ports feature cargo container storage, 
petroleum and liquefied natural gas facilities, and cruise ship 
terminals as the region is one of the top tourist destinations 
in the world.
    Given the volume of maritime trade, infrastructure may be 
attractive targets for terrorist attacks. Finally, all 
Caribbean states except for Trinidad and Tobago are highly 
energy dependent, which raises costs for security operations 
and makes them subject to energy influence. Venezuela's 
President has persuaded 14 nations to join Petrocaribe, an 
energy aid program that offers petroleum at concessionary 
rates. Should United States retreat from commitments or ignore 
friendly ties in the region, Caribbean loyalties could shift.
    The administration's CBSI package represents continuity 
from the 1980s: The Caribbean Basin Initiative, the Clinton 
administration's Bridgetown Summit to the Bush administration's 
Third Border Initiative. In this case, continuity is a good 
thing. Moreover, it is a great thing. However, we should not 
fool ourselves that what is being contemplated under CBSI is 
enough. Haiti is still not a fully functioning state, and its 
weak law enforcement represents a security challenge. And many 
economies throughout the region are too small to face down 
international drug trafficking organizations, money laundering, 
human trafficking, and the potential for terrorism all by 
themselves.
    We can work smarter building on what has worked in the 
past, like cooperative arrangements under the Joint Interagency 
Task Force South out of Key West, Florida; like Enduring 
Friendship, a program that SOUTHCOM has operated at about $67 
million for 3 years to provide go-fast boats to a number of 
Central American and Caribbean nations. It is still awaiting 
phase III which would address the eastern Caribbean countries.
    In all of this we haven't even talk about the social 
programs that are needed to address such issues as gangs in 
Jamaica and in other countries. And we know that they have a 
large cost in terms of designing activities that will keep 
youth occupied in school and headed toward jobs. None of that 
is cheap. In sum, a $45 million package may be helpful, but it 
will only buy three helicopters. And air and maritime equipment 
is only one of the components contemplated in CBSI.
    Perhaps we cannot afford to do more now, but we must come 
up with a long term strategy to help our allies become more 
secure. Their safety and prosperity will only enhance our own.
    I regret the fact that I won't be able to stay due to a 
previous commitment in the Capitol to answer any questions, but 
I will be happy to answer any questions submitted to me after 
the hearing and come back with any answers. Again, I consider 
this a great privilege to be able to testify before you, Mr. 
Chairman, and ranking member and distinguish members of the 
committee.
    [The prepared statement of Mr. Johnson 
follows:]<greek-l>Stephen Johnson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you very much, Mr. Johnson. We appreciate 
your coming and understand that you have to leave. You have 
been to this committee before so we do appreciate your 
expertise. Thank you very much Mr. Secretary. We look forward 
to having you in the future.
    Dr. Griffith.

  STATEMENT OF IVELAW LLOYD GRIFFITH, PH.D., PROVOST & SENIOR 
  VICE PRESIDENT FOR ACADEMIC AFFAIRS, YORK COLLEGE, THE CITY 
                     UNIVERSITY OF NEW YORK

    Mr. Griffith. Thank you. I want to begin by thanking you, 
Mr. Chairman, along with ranking member Connie Mack, and my own 
congressman and to say thanks to Mark and Julie who helped to 
facilitate the participation on my part this afternoon.
    I have a longer statement of about 20 pages, and that is a 
short for a political scientist, as you know, but with your 
permission, I would like to enter that into the record and use 
a few minutes to share some observations based on the topic at 
hand.
    Mr. Engel. Without objection, so ordered.
    Mr. Griffith. Thank you, Mr. Chairman.
    I want to add my sentiments of congratulations to the 
committee for holding a hearing on the region, a region that 
often gets under the radar screen attention because it is a 
relatively peaceful region compared to other parts of the 
world. I view this hearing as much as anything else a reality 
check, a reality check on Caribbean security, a reality 
security on United States engagement with the Caribbean.
    And as I think of reality checks, I am reminded of a 
statement made in 1936 by a British statesman, Anthony Eden, 
and he was cautioning European colleagues about realities and 
what he said was this: There is nothing more dangerous than a 
foreign policy based on unreality.
    What he was advocating, Mr. Chairman, is the importance of 
conducting situational analysis, situational assessments when 
one wants to pursue new policy or to redesign, revamp policy. I 
think it is arguable what Mr. Eden said foreign policy extends 
beyond foreign policy. One can make that same argument about 
defense policy and health policy, and certainly about security 
policy. I am delighted to be able to add my voice in this 
reality check that this committee is doing.
    I thought maybe one contribution that I can make in helping 
the committee to undertake its reality check is to respond to 
three questions. The questions I have responded to extensively 
in the statement, but I will just tell you what the questions 
are and I will make a few observations on some of those 
questions.
    I think it is important that in any reality check we be 
reminded about why the United States should care about what 
happens in the Caribbean. We shouldn't take for granted that we 
all appreciate and know what are the things, what are the 
interests, the intersection of interest between the United 
States and in the Caribbean.
    So that is the first question in my written statement that 
I spend some time addressing, national interest.
    I think it is important as well that in the reality check 
on the landscape we ask the question: What are the clear and 
present dangers facing the Caribbean in contemporary times? But 
going beyond that second question, vis-a-vis the proposal by 
President Obama on the Caribbean Basin Security Initiative, I 
think it is important to ask the third question which is: What 
is the engagement backdrop against which this initiative comes? 
And what are some lessons learned from some recent engagements 
so as we go into this engagement we avoid those pitfalls. We 
don't want to make the same mistakes again.
    So if you allow me, Mr. Chairman, I will make a few quick 
observations about what is the security landscape of the 
Caribbean, and what are some recommendations I might recommend 
and offer to you that as you contemplate implementing the 
initiative of this iteration, we keep in mind some lessons 
learned from particularly the third border initiative.
    I think it is fair to say if you take a look at the 
landscape of the Caribbean, you will find two sets of security 
concerns. You will find in one basket some traditional security 
concerns, and the traditional security concerns revolve 
primarily around border and territorial disputes. We still have 
within the Caribbean Basin about 30 border and territorial 
disputes. The ones that are on the radar screen generally are 
the significant ones, so to speak, are the disputes between 
Venezuela and Guyana. Venezuela still has a claim for five-
eighths of Guyana's 213,000 square kilometers.
    There is a dispute still between Suriname and Guyana for 
15,000 square kilometers on the eastern side of Guyana. And you 
probably know most well of the recent developments in the 
Guatemala-Belize dispute. I make these observations to say as 
we focus on the landscape, while we are going to be talking 
significantly and have been talking more about the 
nontraditional threats, those traditional issues are still 
there.
    Guyana and Suriname resolved before the International 
Tribunal of the World Court recently the maritime dispute, but 
there is still a land dispute there.
    But if you were to make a comparative assessment of the 
relatively more significant present dangers of the traditional 
vis-a-vis the nontraditional, I think both analysts and 
statesmen in the Caribbean and the United States would contend, 
and I think correctly so, that it is the nontraditional issues 
that are the clear and present dangers, and I spend some time 
talking about them.
    There is a dangerous Troika in that nontraditional basket, 
a Troika that includes drugs, a troika that includes crime, a 
Troika that includes arms smuggling and there is a certain 
synergy among and between them. They are not discrete silo 
elements in the nontraditional basket. Reality is that part of 
the difficulty of contending with each of those troikas has to 
do with the fact that each of those troikas is a 
multidimensional troika.
    We often think of the drugs issue as a trafficking issue 
primarily, but it is not. There are still significant people 
within the Caribbean society who are addicted for a variety of 
reasons. Money laundering is still an issue for the Caribbean. 
And, therefore, I am reminding us as we think of any of the 
three most significant clear and present dangers, keep in mind 
that each of them is multidimensional. The reality is 
multidimensionality is there.
    Much has been said about the connectivity among and between 
drugs and arms and crime. I spend some time in my written 
testimony explaining some of the contemporary realities, and we 
can come back and ask questions about that. But I want to shift 
in the time I have remaining, Mr. Chairman, to say a little bit 
about the security engagement backdrop against which this new 
initiative falls. In the paper testimony I offer three, but I 
want to confine my remarks to two recommendations of things you 
might take under advisement as we move into the realm of policy 
implementation.
    There is a wide range of existing, as you know, bilateral 
and multilateral initiatives. I think we have seen the success 
of Operation Bahamas and Turks and Caicos which has been around 
since 1982. We have seen the relative success of Trade Winds, 
an annual exercise that goes beyond simply narcotics issues to 
a variety of other issues. And I think we also see the value of 
the Merida Initiative, and I was interested to hear that as the 
standing up of the CBSI comes into force, the Dominican 
Republic and Haiti will be moved away from the Merida 
Initiative into that. That is an interesting concept that I 
think we may want to talk about.
    So we have an existing landscape and a variety of 
engagement initiatives, many of which are wonderful ways of 
combating the interdependent issues facing the region.
    But as we move into this latest iteration with this new 
initiative, I think it behooves us to ask what are maybe one or 
two pitfalls of the third border initiative that this committee 
and the administration would be mindful to keep in mind as we 
move from design to implementation. This is what I want to 
offer as my two recommendations on the new initiative.
    My first recommendation is to avoid what I call a low 
investment, low results approach. The third border initiative 
had, I think, two ingredients for a recipe of limited success. 
One, it was a minuscule funding package. Two, it had some broad 
and extensive expectations and mandates. I think it has got to 
be a coincidence between what was intended as an outcome and 
what is invested on the front end. And I would hope not only 
would this committee be willing, as I have heard the chairman 
and others say they were willing to do, ask for a full 
restoration of the full funding of $45 million. But I think 
even at $45 million, we are being looking at low investments. 
Low investments that can only maybe sometimes allow us to 
practice the science of muddling through without seeing 
significant outcomes discerned over time.
    So my first recommendation is to avoid low investment 
approaches, whether by design or default. Go for the kinds of 
investments that can demonstrate outcomes of an appreciable 
kind.
    My second recommendation is try to avoid, to use an adage 
from parts of the Caribbean, robbing Peter to pay Paul. Taking 
money from Trade Winds to be able to fund the current 
investments in the Caribbean Basin Initiative. I am thinking 
not only would it be valuable to embrace the new initiative in 
its entirely, but be mindful of the fact that there are lessons 
from the third border initiative that should inform how we go 
about pursuing this initiative.
    Low investment is not the way I would recommend, and 
diminishing the current operations in OP VAT and Trade Winds 
would also not renown to the advantage of the Caribbean or the 
United States.
    [The prepared statement of Mr. Griffith 
follows:]<greek-l>Ivelaw Griffith deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you.
    Dr. Maingot.

 STATEMENT OF ANTHONY P. MAINGOT, PH.D., PROFESSOR EMERITUS OF 
  SOCIOLOGY, NATIONAL SECURITY SCHOLAR-IN-RESIDENCE, FLORIDA 
                    INTERNATIONAL UNIVERSITY

    Mr. Maingot. Thank you, Mr. Chairman. It is a privilege to 
be here.
    I must tell you, this is a very unique country. I testified 
four times before the House without even being a U.S. citizen. 
I think it is perhaps the only country in the world where that 
takes place. I am now a U.S. citizen. But my concern is less 
with the drugs coming into the United States as it is with the 
drugs remaining in the Caribbean because the old notion that it 
is an American problem which you heard from island to island, 
they will tell you in Haiti, has turned out to be a very costly 
myth.
    Every island now has a major problem of drug addiction 
which turns out to have two other impacts. Number one, it 
contributes to the Caribbean's HIV/AIDS crisis which is second 
only to central Africa. And two, it contributes to crime. And 
crime is really wracking these islands.
    I submitted a paper, and just to show that sociologists are 
more verbose than political scientists, it is longer than 
Professor Griffith's paper. I submit it for the record.
    I want to make several points. First, the allocation of 
what I thought was $45 million for this initiative turns out 
now to be $37 million; it is a drop in the bucket. If anybody 
believes that $37 million, I don't care how parsed in 
bureaucratic terms, is going to make any difference in a region 
the size of the Mediterranean with the kind of problems that we 
have is dreaming. That is number one.
    Number two, unless we solve two fundamental problems which 
directly relate to the Americans: Money laundering--which the 
banks on the border with Mexico and the banks in Miami have a 
great deal to do with--and the export of guns. Florida, the 
State where I live, has the laxest rules on gun sales. The coup 
d'etat which took place in Trinidad in 1990 was carried out 
with guns bought at a gun fair in Fort Lauderdale, 134 Israel 
rifles purchased with money taken in cash and taken to 
Trinidad. This flow of guns continues.
    Third, the issue of deportees. It is simply grossly unfair 
to deport these people to the islands which have completely 
overcrowded jails. I think if I would use any part of this 
money, it would be to build additional jails on the islands in 
which you could house some of these deportees. Fourth, and very 
important is the whole geopolitical initiative. We cannot have 
a major geopolitical initiative in this without including every 
country in the Caribbean, including Cuba. Just look at the map. 
Look at the border of Cuba. Look at the countries it borders, 
and you will realize what every country in the Caribbean 
realizes--since they all have excellent relations with Cuba--
that Cuba has to be an integral part of this anti-crime 
initiative.
    Additionally, we cannot expect these islands to pick a 
fight with Mr. Hugo Chavez of Venezuela. They are all, with the 
exceptions of Trinidad and Barbados, members of Petrocaribe. 
They are all beneficiaries of Operacion Milagro, which is the 
Cuban medical thing which is paid for by Venezuela. After all, 
we continue to buy oil from Venezuela. If we wanted to bring 
Chavez down, we would stop buying his oil. We are the only 
country that pays cash for the Venezuelan oil. Without our 
purchases, Chavez would have been finished a long time ago. How 
can we expect these small countries that are beneficiaries? So 
my recommendation is I understand fully the role of Venezuela.
    I am from Trinidad. I have been by both of these rivers; I 
know the smuggling has been going on forever. We cannot expect 
these countries to take a stand vis-a-vis Mr. Chavez. We should 
keep our initiative on the Caribbean separate from our 
initiative in Colombia. It was a mismanaged public relations 
effort that the two were announced at the same time, the 
extension of the bases which are not American bases, they are 
Colombian bases.
    Finally, the Caribbean also is seeing the reentry of the 
European powers. We are seeing the Dutch reinforce their 
marines in Curacao. I just visited one of their destroyers that 
was visiting Miami. They are now housing and we are renting 
space in both the airports in Curacao and Aruba. The Brits are 
coming back in. The French are reinforcing their forces not 
just in Martinique and Guadeloupe but fundamentally in Guyana 
where they have moved now, the French Foreign Legion where 
President Sarkozy has had two meetings with President Lula da 
Silva of Brazil because Brazil has two fundamental fronts. One 
is the south Atlantic where its oil is and the other is the 
Amazon. We have to bring all of these elements into the play, 
both in terms of effectives and intelligence if anything is 
going to be made from a true effort in the Caribbean.
    Thank you.
    [The prepared statement of Mr. Maingot 
follows:]<greek-l>Anthony Maingot deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you very much.
    Let me ask a question about the deportees, Dr. Maingot, 
since you mentioned them. One of my colleagues mentioned it 
before. Whenever I go to any of the Caribbean countries, the 
deportees is always a question that comes up. What should the 
United States, you mentioned the building of jails, some of the 
money would go to the building of jails in your testimony. But 
what is the actual impact of the increased deportations? What 
programs do the different nations have to deal with the 
reintegration of the deportees and should we be involved in 
them? Are there other countries that also send criminal 
deportees back in the Caribbean and what do they do with them?
    Mr. Maingot. Britain sends and Canada sends. But the 
French, I don't think so because the French territories are 
departements d'outre-mer, Oversees Departments of France, so 
there is no question of deportation there.
    In terms of Canada, the U.K. and the United States.
    Now, as you go island to island, there is really 
controversy whether the deportees are a major part of the crime 
problem.
    I, frankly, doubt that they are a major part of the crime, 
but they are in the consciousness of the citizens of these 
islands. For instance, in the Dominican Republic, the so-called 
Dominicoyorks, the guys who are deported from your State, New 
York, they are feared. In Haiti, they are feared because they 
are part of the gangs that exist in Haiti, in the Bahamas and 
in Miami where the Haitian gangs are very well organized. So it 
varies from one zone to the other.
    Now in Trinidad, my island, there is a whole section a 
whole neighborhood of deportees but there is no evidence that 
they are a major part of the crime wave that we are 
experiencing. Our murder rate now is higher than Jamaica's, if 
you can believe that. And Jamaica's is 30 times that of 
Britain. So you know we have a serious problem. Now Trinidad of 
course is 9 miles off of Venezuela and the planes and the boats 
are coming in all the time. They are bringing in weapons and 
bringing in drugs. So the question of the deportees, frankly, I 
don't think there is any solid evidence that they are a major 
part of the problem.
    Mr. Engel. Thank you. Let me ask Dr. Griffith. What 
countries in the Caribbean face the greatest security threat 
from drug trafficking? And what measures and approaches are 
these measures taking to deal with the high levels of violence? 
And what should we do with all of that? How is the CBSI looked 
upon in the Caribbean by the leaders of the Caribbean?
    Mr. Griffith. Thank you, Mr. Chairman, for the question. 
Maybe I can respond to the last question first. I think there 
is a view within the Caribbean, as best as I can tell, that 
this new initiative is welcome and it is welcome not only 
because it is coming at the time of resource deficiency and the 
part of continuing resource deficiency on the part of Caribbean 
countries. It is coming because any and all of the problems 
based in the Caribbean countries are not amenable to any 
individual country solution, even if they had the resources. 
Even if the United States had all the resources invests, the 
nature of the problems is transnational. They are not amenable 
to one country resolution.
    Having said that, I think there are degrees of difficulty 
on the part of countries in the Caribbean. The crime problem is 
a significant problem for Jamaica. It is a significant problem 
for Guyana. It is a significant problem for Trinidad and 
Tobago, but it is also important to recognize that not all the 
crime in any individual Caribbean countries or across the 
region are related to drugs. Some of the crime in many parts of 
the region as is true in other parts of the world have to do 
with poverty and people pushing the envelope for survival. Some 
of the crime has to do with social enemy. When people are 
hungry, they sometimes take it out on their spouses.
    When husbands can't provide food for the families, they 
take out on the kids. So you are seeing some of the criminality 
that is really social enemy caught up in a larger wave of 
drugs-driven crime. And I think it is important to recognize 
that all the crime in the Caribbean, as is true in other parts 
of the world, is not crime related to drugs. But the 
availability of weapons complicates and facilitates that 
criminality. The inability of the government to provide 
training adequately, to provide equipment. There are many parts 
of the Caribbean when you call the police, they ask, can you 
come and get me. I was in Trinidad last week, 1,400 people 
short in the police force. This was announced by the 
commissioner of police who was acting.
    So you ask the question, what are the capability resources 
on the part of the societies in the region to deal with it? The 
fact that not only the good guys know that the police don't 
have the resources, the bad guys know as well. So therefore 
they are emboldened. It is a question of degree across the 
region. It is not amenable to any one country resolution.
    Mr. Engel. So a lack of 1,400 police; it is due to lack of 
resources?
    Mr. Griffith. As well, I think, it is not simply a lack of 
resources. It is a combination of resources and management. The 
irony of Trinidad and Tobago is that it is the wealthiest of 
the countries in the Caribbean but you have got some also 
management issues. You have got corruption issues. You have got 
a variety of issues complicating the ability of the law 
enforcement and different forces to really make a dent on the 
criminality in the individual country and in the subregion 
itself.
    Mr. Engel. Thank you. Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman. And I first want to, if 
I could, Dr. Maingot, I would like to respond to your statement 
about we should not be asking the members of the countries in 
the Caribbean to take on Hugo Chavez. I agree with you. That is 
something the United States should do. We should take a stand 
when it comes to Hugo Chavez. And I wanted to ask you a 
question. You had talked about the French and the Dutch, I 
think, and their involvement. If you could quickly kind of talk 
about what they are doing. And the second part of my question 
to both of you is what would be the consequences if the U.S. 
did nothing?
    I think both of you had indicated that you thought the 
resources that are putting forward are a drop in the bucket or 
you know indicate that it is not enough. What would you do to 
enhance it? Where would you go with it? What would the number 
be? What would the other resources be that you would think 
would be needed to carry out this initiative? 
    Mr. Maingot. Well, there is a very interesting phenomenon 
taking place in the Caribbean where issues of sovereignty, 
sensitivity, saving face--after all, these are tourist 
economies. The last thing<greek-l>s deg. in the world you ever 
want to hear about is a shark attack. We don't have any sharks 
in the Caribbean. They are all friendly sharks supposedly or 
crime because it directly affects the tourist industry. Jamaica 
is facing this in a major way right now. One of the interesting 
things that is occurring is the invitation of, for instance, of 
retired members of the British Scotland Yard special branch. We 
see them now in island after island.
    In fact, one of the most successful anti-drug programs in 
Jamaica, the Kingfish program, which was to stop the fast boats 
coming in from San Andres Providencia, which are the Colombian 
islands which are within reach of these fast boats, is led by 
an Englishman. And we see that now with the Dutch Marines in 
the Netherlands and in the Netherlands Antilles. I went to high 
school in Kurasawa, a Dutch high school. And the last thing in 
the world that Kurasalenos ever wanted to know was, Dutch 
coming in. Now they welcome them.
    And with the Brits, we see the way the Brits acted in the 
case of the British Virgin Islands where they closed down the 
government and they returned to crown colony. So what we are 
seeing in the Caribbean is a re-entry of the European imperial 
powers, if you want, invited by us. And I think we could get a 
lot of lessons in terms of how they interact with the islands 
from the Europeans. I think we have got to do that rather than 
going off like lonesome cowboys, thinking that the Caribbean is 
still our area of ``can do,'' which it always has been. But 
that is over. It is too complicated.
    Every island, as we saw in the case of Grenada--look, there 
is a case taking place in Dominica right now. They have an 
election coming up. Somebody mentioned the amount of Dominica's 
gross domestic product. The amount of money being spent in 
Dominica for <greek-l>this  deg.these elections is nearly $9 
million U.S. Where is this money coming from? And this is what 
we are seeing in island after island. The amount of money is 
ratcheting up--and you mustn't think that corruption is only at 
the lowest levels. Corruption in the Caribbean is at the 
highest levels of society, the highest levels of the society.
    Mr. Mack. Dr. Maingot, if I could, because I only have 1 
minute left. I would like, Dr. Griffith, if you could talk a 
little bit about what happens if we do nothing? And then on the 
other side of that question is, what do you think we need to do 
to enhance it and to make sure that we are successful?
    Mr. Griffith. If nothing happens, several consequences will 
result. I will give you five or six of them. Consequence number 
one, an increase of crime that scares tourists away, affecting 
tourism which is the bread and butter for most countries in the 
Caribbean. And this is even for a country like Jamaica that has 
bauxite, even for a country like the Dominican Republic that 
has minerals, even for a country like Trinidad and Tobago that 
has oil, tourism is a critical variable. Crime would have an 
impact not only on tourism that will undermine economic 
stability. It will have a deleterious effect on foreign 
investment.
    Foreign investors do not want to go into an insecure 
opportunity environment because the amount of things it is 
going to increase the cost to do business. One of the phenomena 
we are seeing in the Caribbean--and it started with anglophone 
Caribbean in Trinidad--is a dramatic increase in private 
security partly because government forces, public citizens 
aren't able to do their job, people are now turning to it. If 
the foreign investor has to come and invest in private security 
just to have a sense of peace of mind, it will add to the cost 
of doing business. It will also be a disincentive.
    So I think those are critical aspects of what are likely to 
happen. When you have an increased amount of crime, given the 
Internet that we have got, given the linkages between the 
United States and the Caribbean and the rest of the world, you 
are going to find increasing networks. Many people from the 
Caribbean are deported from the United States. What happens? 
They end up right back in the United States. There is a case 
where a guy was deported 13 times. Why? There is a network of 
document falsifications. So there is, beyond the criminal act, 
other illegal entities, other illegal activities like document 
falsification which are going to complicate the ability of the 
society as to the way they do business.
    But I will tell you what else would happen if nothing else 
happens on the part of the United States of foreign investment. 
Other societies globally are going to try to fill the void. We 
saw it happening with China 5 or 6 years ago, and China is now 
in many parts of the Caribbean in significant ways. I was in 
Guyana last week, and I was surprised that there were two 
massive complexes. They said what are they doing here? The 
Chinese are going to be coming back more significantly. You are 
going to be finding it with the absence of an American 
inclusiveness the willingness of Hugo Chavez to be a little 
more bold and to push the envelope of engagement.
    That would be deleterious to American geopolitical 
interests, but I think you are also likely to find that it may 
be an opportunity for other countries, some of whom would like 
to get a piece of the Caribbean action. Russia is a significant 
investor and there is nothing wrong with foreign investment 
from Russian. In Guyana in the mining operation in the bauxite 
operation, the coal operation in Suriname, there are other 
players who are going to seize the opportunity where the United 
States will either stagnate its engagement or not to increase 
its engagement.
    Let me spend 1 minute, Mr. Chairman, in responding to the 
other part of the question. What should the investment be? I 
say start with $100 million. Start with $100 million with the 
recognition that none of these problems is amenable to a short-
term fix. Give it a 6-year duration. Make that two phases but 
critically do something else. Reduce the administrative costs 
of managing these programs. The reality is, in very many 
occasions, so much of the money does not get to the region 
because of administrative overheads, the way in which things 
are managed. One of the things I argued in the statement is, 
please don't create a new bureaucracy. Creating new 
bureaucracies are going to divest the sufficiency of funds for 
things to actually happen in the region.
    So limit administrative overhead. Keep few conferences. Use 
existing instruments rather than having another conference of 
signed documents. Focus on the deliverables getting to the 
region to make a difference but do not think that these things 
are amenable to short quick fixes.
    Mr. Engel. Thank you. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Let me first, at the 
outset, acknowledge the presence, sitting in the audience, of 
Mr. Earl Simon who is a good friend and working hard at York 
College, and clearly, Dr. Griffith, we are proud of you. Your 
college sits in the heart of the Sixth Congressional District 
of New York. We like to say it is the brain of the district, 
and I think Dr. Griffith is exhibiting that today. We are proud 
of you and your work at York College.
    So I just want to make sure that is clearly on the record. 
I also want to thank both of you for your testimony. I think 
that it has been quite excellent and enlightening, and I look 
forward to working more closely with you, with my friends, the 
diplomats from the Caribbean as we move forward. I know that 
the number one economy maker in the Caribbean is tourism.
    But second to tourism, tell me, where is the violence? 
Because I think that both of have you indicated to me, unless 
we have some real economic development, unless people are able 
to have some money in their pockets to provide for their 
families, there is no way you are really going to reduce crime.
    So we have got to create jobs. The other way that we have 
to justify, to be quite honest with you, some of the 
expenditures that we give in aid, et cetera, to some of the 
American citizens, we have got to show that there is some kind 
of relationship to the United States and the effect of it. What 
other industries would you say are being affected by drugs and/
or crime in the Caribbean that we should have a focus on so 
that we can try to make sure that we have some development in 
creating opportunities? I was wondering if there have been any 
studies to quantify the economic impact and insecurity in other 
areas. I know tourism is number one, but other than tourism 
also.
    Mr. Griffith. Thank you, Congressman, for kind sentiments 
and endorsement for the work we are doing at York, which is a 
value not only to Queens, but to the entire New York City. 
There is a reality in many parts of the Caribbean where 
agriculture is a significant player and it is a significant 
player in the eastern Caribbean. It is a significant player in 
Jamaica. Agriculture is a significant player in Guyana. Part of 
that reality is a reality where in recent times but not only in 
recent times, the global impact is making it difficult for 
agricultural businessmen to make profits. One of the 
interesting outcomes of that is--and I know for a fact in 
Guyana--is that people have been shifting from agriculture to 
drugs. Why plant rice or bananas where you have got investments 
to make in having those products come to market when there is a 
low investment in marijuana? The point is then that the 
production of illegal substances--and again, production is a 
reality of the narcotics phenomenon. It is not simply 
trafficking, money laundering use. There is legal production in 
many parts of the Caribbean. To the extent that one produces 
more marijuana and less rice or less bananas, you are affecting 
the capability of the society as a whole but you are affecting 
the earning power of decent citizens to do their job in 
credible ways.
    I wrote a book in 1997 called Drugs and Security in the 
Caribbean: Sovereignty Under Siege. I will be happy to send you 
a copy. And I spent part of that study making an estimate of 
some of the economic and social policy consequences of crime 
and drugs, consequences that have to do with a more significant 
need for investment. Jamaica had a reality, I think, in the 
year 1994, that it spent more money on national security and 
crime than it spent on education. What crime and drugs do is 
they skew the allocation of resources to social products. You 
have got to invest more in fighting crime. You have less to 
invest in education in potable water in housing.
    So the reality of drugs has a multidimensional impact on 
society not only in focusing, shifting away from one area of 
the economy, maybe agriculture to something that is legal 
because it is more profitable. But it also impacts the 
availability of resources on the part of the government to be 
able to do things that are really in the interest of the people 
whether those things are education, whether those things are 
health or other things. I would be happy to send you a copy of 
that.
    Mr. Mack. Let me just ask Mr. Maingot one question. That is 
simply, what do you see as the biggest challenges that we face 
in implementing CBSI, other than, I know, dollars? I heard 
that. But what is the biggest challenge you think in actually 
having an implementation that would be effective?
    Mr. Maingot. The biggest challenge is that the forces of 
law and order in much of the Caribbean have lost all 
legitimacy. People do not believe in the police anymore. My 
paper is full of evidence from Trinidad. The exception is 
Barbados. But Barbados is the model for the rest of the 
Caribbean if we could only look at ourselves instead of going 
off to Singapore all the time to find a model. Barbados is the 
developed country of the third world, and they have no major 
natural resources. It is all based on education. And that is 
where we have to go because services are the only route we can 
go because we are a high wage region and we cannot compete with 
Mexico, much less with China.
    We have to go with services but services require technical 
education. The biggest challenge we are going to face is the 
fact that the forces of law and order, you go to Jamaica and 
you sense it. It is called the tight lips culture. Nobody wants 
to testify against anybody. Nobody in Trinidad wants to testify 
against anybody. The police is completely distrusted, and that 
is the biggest challenge we have, that the local forces--
because we can't go there and do it. We can't put boots on the 
ground. That, to me, is the biggest. And if we had more time, 
we would look at Jamaica as a case which really exemplifies 
what many of us could become where the drug dons rule, and that 
is why some of them cannot be extradited because if they are 
ever extradited, the people would come into the street and they 
would stop. They would stop that government.
    There are big extradition cases going on right now, which 
is the talk in Jamaica, why is it that they are not extradited? 
They cannot because what has happened is the patronage that the 
politicians used to give out of their pockets or out of their 
collections have now been jacked up by the patrons given by the 
drug people. There is no competition, which makes the political 
system more or less captive of the drug money.
    Mr. Engel. Thank you. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I just want to agree 
with an observation by Dr. Griffith, and then I want to ask Mr. 
Maingot some questions. I can't agree more that we have to deal 
with what the realities are. I would submit that realities have 
to be fact-based to begin with and to rely on assumptions or 
opinions or platitudes gets us in trouble. I can't agree more. 
That is why we have to really examine the facts. Let's start 
with facts.
    Dr. Maingot, you made a statement about who has a higher 
rate of homicide than Jamaica?
    Mr. Maingot. Trinidad and Tobago.
    Mr. Delahunt. Trinidad and Tobago.
    Mr. Maingot. And we have one-fifth the population of 
Jamaica.
    Mr. Delahunt. In Trinidad?
    Mr. Maingot. Yeah, 1.2 million.
    Mr. Delahunt. And you indicated the most significant 
problem facing these countries is confidence in law enforcement 
because of the level of drugs.
    Mr. Maingot. Absolutely.
    Mr. Delahunt. We heard a lot about Hugo Chavez today. Is he 
responsible for that lack of confidence in the police in 
Trinidad and Tobago?
    Mr. Maingot. Well, there is no doubt that Venezuela is the 
big exporter of drugs. Oh, massive. Air and boat. Of course, 90 
percent of the drugs--Venezuela doesn't produce or manufacture 
drugs. Ninety percent come from Colombia. My opinion, and I put 
it in the paper--is that Mr. Chavez has lost control over his 
forces of law and order. The level of corruption in the 
Venezuelan Guardia Nacional especially is total. He also has 
some people pretty close to him that are benefiting from the 
trade. Whether Mr. Chavez has a design to undermine these 
countries, I doubt that very much. I have very serious doubts 
about that thesis.
    Mr. Delahunt. All right. Let me get back to my original 
line of questioning, and you referenced the two about does it 
make sense to look at the Caribbean area in terms of security, 
specifically in terms of dealing with the interdiction of drugs 
without implicating Cuba into the equation?
    Mr. Maingot. It makes no sense at all.
    Mr. Delahunt. It is dumb, is that basically what you are 
saying?
    Mr. Maingot. Exactly. By the way, Cuba has an incipient 
drug problem. My last trip there, I was astonished to hear drug 
talk. [Speaking Spanish.] Let's go and take a snort of a line. 
That is drug talk that you hear in Miami, well, other places.
    Mr. Delahunt. You hear it in Miami, but you don't hear it--
--
    Mr. Maingot. You hear it in Cuba now. The drugs are 
penetrating Cuba.
    Mr. Delahunt. Well, no authoritarian state countenances 
drug use because it erodes the state. This is obviously, you 
know, describing Cuba as a democracy where there is freedom of 
travel, freedom of information, et cetera, that falls outside. 
How would you recommend--would you recommend to the United 
States Government that on the issue of drugs that it makes 
common sense to work with the Cuban Government? Where we have 
had a very positive experience--and maybe you can answer that, 
and then maybe you, Dr. Griffith.
    Mr. Maingot. Congressman, I regard American policy toward 
Cuba as one of the most shortsighted policies. It is based on 
vindictiveness and punishment, not on serious geopolitical 
measures because the fact of the matter is, I am not advocating 
diplomatic relations. Cuba has over 300 political prisoners 
of----
    Mr. Delahunt. What you are suggesting is that it is in our 
best interest to work on these particular interests. It is 
about our security?
    Mr. Maingot. Lift the embargo. Our policy toward Cuba 
poisons our relations with the rest of Latin America. The 
silver bullet would be to remove that policy and we would be 
much better off.
    Mr. Delahunt. Let me ask you this, do you think, given your 
experience--and Dr. Griffith, I would appreciate your response 
as well--do you think engagement on Cuba on these discrete, 
specific issues would be welcomed by the Caribbean community?
    Mr. Maingot. Absolutely. That is my opinion.
    Mr. Delahunt. Dr. Griffith?
    Mr. Griffith. One of the regional forums in the Caribbean 
that is part of the counter crime, counternarcotics is 
enterprise is something called the Association of Caribbean 
Commissions of Police, and I regularly attended the meetings. 
And I remember when we met in the Cayman Islands in the 1990s. 
There was a concerted effort to reach out to Cuba because there 
was a coincidence of interest between the Caribbean and Cuba. 
The stumbling block was the United States that said, were you 
to reach out to Cuba, your funding on X, Y, and Z would be 
pulled. Cuba recognizes the drug problem is a transnational 
problem. Cuba recognizes that it has not only the addiction 
consequences but criminality consequences. Cuba is in the 
business of trying to survive dealing with this reality. I 
think it would make sense that absent diplomatic relations 
being fully restored that there be selective and graduated 
collaboration.
    It has been going on for more than a decade. I remember 
1997, there was a ship called The Limerick. It left Colombia 
with drugs into Cuba. Cuba actually confiscated and turned the 
drugs over to the United States. Now the folks in Miami where I 
was living at the time were not very happy. The Cubans even 
sent people to Miami to testify. They are willing to engage.
    Mr. Delahunt. But we had to be quiet about that. We had to 
do it in whispers.
    Mr. Griffith. Very much. All sorts of things had to be not 
said. I think it is the persistence of a foolhardy approach not 
to embrace the players, and Cuba has been willing. If you look 
at the allocation of funding from the United Nations Office on 
Drugs and Crime that has helped Caribbean countries and other 
countries over the years, Cuba is one of the biggest 
beneficiaries because they recognize they have a got a 
multitude of problems. They are domestic political realities to 
be contended with but I think notwithstanding those realities, 
it is in the Caribbean's national interest, it is the United 
States' national interest, it is in Cuba's national interest to 
have a coincidence of those interests that allows for a 
selective but graduated engagement on the business of drugs.
    Mr. Delahunt. Thank you. And maybe we can accomplish that 
if we do it in whispers. Thank you, and I yield back.
    Mr. Engel. Thank you. I don't know if that should be the 
last word, but it will be.
    Mr. Griffith. You are the chairman. You have the last word.
    Mr. Engel. I want to thank our witnesses for the very 
excellent testimony. This is one of those hearings where you 
listen and you learn a lot, and it seems very easy to me that 
we need money to solve a problem. You can't just throw good 
money after bad. But if we are careful in how we spend it and 
what we use it for, it is clear to me that we can do some 
really good things with our neighbors in the Caribbean. I heard 
President Obama at the Summit of the Americas in Trinidad, and 
he was a rock star there. I told him when I saw him after that, 
``You were a rock star,'' because everyone hung on his every 
word.
    And the words were very good. Now we have to make sure that 
the words are not just words and that we all, working together, 
make those words a reality because it has always occurred to me 
that while we do have pressing problems all around the world, 
the problems that we have at home are really the problems that 
we should take care of first.
    When I talk about home, I mean, the Western Hemisphere and 
particularly since we have such a close relationship with our 
Caribbean friends, it is really very, very important to put our 
heads together and work again with them--not tell them but work 
with them in finding out what the best way to combat these 
problems. Because they are not just problems that affect the 
nations of the Caribbean. They affect the United States as 
well.
    I always give this speech when I talk about Mexico but what 
is said about Mexico is the same thing for the Caribbean as 
well. When I sat with the Prime Minister of Jamaica and he gave 
me those statistics about how more than 90 percent of the guns 
committing crimes come from the United States, well, you know 
that is not just a Jamaican problem. It is a problem for the 
United States as well. So I thank our witnesses. Again, I thank 
all the distinguished ambassadors who came and stayed. Very 
impressive. I have to report back to your governments and say 
that they have appointed some good people in Washington. We are 
happy to have you.
    And as always, you know that I always have an open door 
policy. I am happy to speak with any or all of my friends from 
the Caribbean any time you want to talk about it because it is 
a subject that is very, very important to me. So again, I thank 
you. I thank Mr. Mack, Mr. Meeks and Mr. Delahunt. The hearing 
is adjourned.
    [Whereupon, at 5:01 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mack statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Q&As--Engel deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Q&As--Delahunt deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>CCAA FTR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>CCAA FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>CCAA FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
